                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

  Case Number: 1-: :08050036                                                                       Page 1 of 1



                     This investigation was initiated after we received an allegation that a visiting scientist 1
             received duplicate salary payments from an NSF grant2 to a university3 while also receiving pay
             from the visiting scientist's home institution,4 a foreign university. In the first two years of the
             grant, the visiting scientist, who as the Principal Investigator (PI), was paid a salary from the
             grant during periods in which he was jointly working with the co-PI 5 at the university during
             breaks from his home institution.

                  In year three of the grant, the co-PI left the university. With the approval of the
          university, the visiting scientist received additional salary payments from the grant during the
          final two years of the project while he was also in a pay status at his home institution. When the
          home institution became aware of the additional salary, it placed the scientist on leave without
          pay for six months.

                   The visiting scientist originally told the university of the position at the home institution
          but agreed to work on the grant only while at the uniyersity during winter and summer breaks
          from the home institution. The university did not negotiate an agreement with the home
          institution to ensure that the visiting scientist did not receive duplicate salary payments. In
          addition, the university failed to notify NSF that the co-PI had left the university, as required by
          both NSF and the university's procedures. Finally, the university did not follow its own
          procedures for changing the budget to include the PI's salary increase.

                  The university acknowledged that it failed to follow its own procedures, causing an
          overpayment of unallowable salary, fringe benefits, and indirect cost totaling $93,324.67. The
          university returned this money to NSF and also made several administrative changes to
          strengthen its internal controls.

                    This case is closed with no further action taken.




         2


         4




NSF OIG Fonn 2 (11/02)
